HHS/OIG, Audit - "Review of Excessive Payments for Outpatient Services
Processed by National Government Services for Calendar Years 2004 and 2005 -
Illinois, Indiana, Kentucky and Ohio," (A-05-07-00065)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Excessive Payments
for Outpatient Services Processed by National Government Services for Calendar
Years 2004 and 2005 - Illinois, Indiana, Kentucky and Ohio," (A-05-07-00065)
September 10, 2007
Complete
Text of Report is available in PDF format (671 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether high-dollar Medicare
payments that National Government Services made to providers for outpatient
services were appropriate.  Most of the high-dollar Medicare outpatient payments
were not appropriate.  For calendar years 2004 and 2005 claims, National
Government Services made 79 payments of $50,000 or more for outpatient
services.  Our analysis indicated that only 13 payments were correct and the
remaining 66 payments were inappropriate.  At the start of our fieldwork in May
2007, 53 payments, totaling $3,338,895, had been refunded by the
providers and 13 payments, totaling $513,796, remained outstanding.
We recommended that
National Government Services (1) inform us of the status of the recovery of the
$513,796 in overpayments that our audit identified, (2) identify and recover
additional overpayments made on high-dollar outpatient claims paid after
calendar year 2005, and  (3) use the results of this audit in its provider
education activities.  National Government Services agreed with our
recommendations.